Supreme Court, U.S.
FILED

JUL 0 8 2021
OFFICE OF THE CLERK

No.

3fn W$t

Supreme Court of tfje fflnttrb States
FRANK C. WARNER, PRO SE,
Petitioner,
v.

U. S. DEPARTMENT OF EDUCATION,
MIGUEL CARDONA, SECRETARY,
Respondent.

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Eighth Circuit

PETITION FOR A WRIT OF CERTIORARI

Frank C. Warner, Pro Se
1039 Lake Rest Rd.
Proctor, AR 72376
901-490-6773
fcwmjw@msn.com

RECEIVED
JUL 1 2 2021

1

QUESTIONS PRESENTED
Circuit Confusion exists in the matter of Promissory
Notes.
This Court must resolve this issue and set one stand­
ard for all 50 states.
Failure to do so may lead to the economic confusion in
the 1600’s that led England to create the Statute of
Frauds.
This issue is:
“Is a fully legible Promissory Note (Contract)
required to collect on a debt?”
“If a Promissory Note is not required to collect
on a debt what document substitutes for the
terms and conditions to enforce collection of
the loan?”

11

PARTIES TO THE PROCEEDING
Petitioner Frank C. Warner, Pro Se, was the plaintiff in
the district court proceedings and appellant in the
court of appeals proceedings. Respondent U. S. Depart­
ment of Education was the defendant in the district
court proceedings and appellee in the court of appeals
proceedings.
RELATED CASES
Petitioner Warner has submitted only two cases that
are related to the issue before the Court. His reasoning
is that a case that has been decided absent a promis­
sory note and a case that has been decided requiring a
promissory note present the issue that must be decided
by this Court.
As a graduate school trained economist with 33 hours
in economics, Petitioner predicts eventual economic
chaos should this Court not set one standard for debt
collection.
Failure to require a Promissory Note to collect on a
debt will create the conditions that led England to cre­
ate The Statute of Frauds in 1677.
The two cases are:
•

Frank C. Warner, Pro Se v. U. S. Depart­
ment of Education (No Promissory Note
needed)

Ill

RELATED CASES - Continued
•

See In Re: SMS Financial LLC. v. Abco
Homes, Inc., No. 98-50117 February 18,
1999 (5th Circuit Court of Appeals) (Prom­
issory Note required.)

Petitioner Warner, knowing how lawyers think, is sub­
mitting several more court decisions requiring the
promissory note to collect a debt:
•

McCay u. Capital Resources Company,
Ltd., 96-200 S.W.2nd 1997

Where the complaining party cannot prove the exist­
ence of the note, then there is no note.
•

See Pacific Concrete F.C.U. u. Kauanoe, 62
Haw. 334, 614 P.2d 936 (1980), GE Capi­
tal Hawaii, Inc. v. Yonenaka, 25 P.3d 807,
96 Hawaii 32 (Hawaii App. 2001).

•

Siwooganock Bank in Lancaster NH, in
alleged foreclosure suit, failed or refused
to produce the actual note which Siwoog­
anock alleges Eva J. Lovejoy owed.

•

To recover on a promissory note, the
plaintiff must prove: (1) the existence of
the note in question; (2) that the party
sued signed the note; (3) that the plaintiff
is the owner or holder of the note; and
(4) that a certain balance is due and ow­
ing on the note. See In Re: SMS Financial
LLC. v. Abco Homes, Inc., No. 98-50117
February 18, 1999 (5th Circuit Court of
Appeals).

IV

RELATED CASES - Continued
•

Beaumont v. The Bank of New York
Mellon (6:ll-cv-01865) District Court,
M.D. Florida

•

Equal protection clause of the U.S. Con­
stitution. 14th Amendment, Section 1.

Unequivocally the Court’s rule is that in order to prove
the “instrument”, possession is mandatory.
•

See Matter of Staff Mortg. & Inv. Corp.,
550 F.2d 1228 (9th Cir. 1977). “Under the
Uniform Commercial Code, the only no­
tice sufficient to inform all interested
parties that a security interest in instru­
ments has been perfected is actual pos­
session by the secured party, his agent or
bailee.”

There are many cases contributing to circuit confusion
on the issue as to requiring the promissory note to col­
lect on a loan.
There should be none.

V

TABLE OF CONTENTS

V

Page
QUESTIONS PRESENTED..................................
1
PARTIES TO THE PROCEEDING.......................

11

RELATED CASES..................................................

11

TABLE OF CONTENTS........................................

v

TABLE OF AUTHORITIES...................................

Vll

PETITION FOR A WRIT OF CERTIORARI.......

1

OPINIONS BELOW................................................

1

JURISDICTION.......................................................

1

CONSTITUTIONAL AND STATUTORY PROVI­
SIONS...................... ............................................

2

WHY A PROMISSORY NOTE IS REQUIRED
TO COLLECT WARNER’S DEBT AND ALL
DEBTS.................................................................. 10
INTRODUCTION AND STATEMENT OF THE
CASE..................................................................... 16
REASONS FOR GRANTING THE PETITION....

19

RELIEF SOUGHT..................................................

23

APPENDIX
United States Court of Appeals for the Eighth
Circuit, Opinion, Filed Feb. 9,2021.................. App. 1
United States District Court for the Eastern
District of Arkansas Northern Division, Or­
der, Filed May 4, 2021...................................... App. 4

VI

TABLE OF CONTENTS - Continued
Page
United States District Court for the Eastern
District of Arkansas Northern Division, Judg­
ment, Filed May 4, 2021
App. 10
Notarized Promissory Note Dated August 28,
1998
App. 11

Vll

TABLE OF AUTHORITIES
Page
Cases
Balmoral Cinema v. Allied Artists, etc., U.S.
Court of Appeals for the Sixth Circuit - 885
F.2d 313 (6th Cir. 1989)........................................

16

Busse v. Commissioner of Internal Revenue, 470
F.2d 1147 (7th Cir. 1973)......................................

10

Erie Railroad Co. v. Tompkins, 304 U.S. 64
(1938)
passim
Matter of Staff Mortg. & Inv. Corp., 550 F.2d
1228 (9th Cir. 1977)...............................................

IV

McCay v. Capital Resources Company, Ltd., 96200 S.W.2nd 1997..................................................

ii

Pacific Concrete F.C.U. v. Kauanoe, 62 Haw. 334,
614 P.2d 936(1980)...............................................

in

GE Capital Hawaii, Inc. v. Yonenaka, 25 P.3d
807, 96 Hawaii 32 (Hawaii App. 2001).............

in

In Re: SMS Financial LLC. v. Abco Homes, Inc.,
No. 98-50117 February 18, 1999 (5th Circuit
Court of Appeals)..................................................

in

Beaumont v. The Bank ofNew York Mellon (6:11cv-01865) District Court, M.D. Florida.............

IV

Constitutional Provisions
The Judiciary Act of 1789...

4

U.S. Const, amend. XIV, § 1

2,15

Vlll

TABLE OF AUTHORITIES - Continued
Page
Statutes
15 U.S.C. § 1692g..................................................

22

28 U.S.C. § 1254(1)................................................

1

7 CFR § 4279.226..................................................

8

34 CFR § 674.31.................................................... 6, 22
Ark. Code § 4-59-101............................................

4

Statute of Frauds, February 20, 2016, by: Con­
tent Team, https://legaldictionary.net/statuteof-frauds/............................................................

14

1
PETITION FOR A WRIT OF CERTIORARI
Frank C. Warner, Pro Se, petitions for a writ of
certiorari to review the judgments of the United States
District Court for Eastern Arkansas and the judgment
of the United States Court of Appeals for the Eighth
Circuit in this case.

OPINIONS BELOW
The Eighth Circuit’s opinion is reported at Docket
#56 and is reproduced at App. 1. A motion was not filed
for reconsideration and rehearing en banc. The opin­
ions of the District Court for the Eastern District of
Arkansas are reproduced at App. 4.

JURISDICTION
The Eighth Circuit Court of Appeals entered judg­
ment on February 9,2021. No petition for rehearing en
banc was filed.
The opinion of the District Court for the Eastern
District of Arkansas is reproduced at App. 4.
This Court has jurisdiction under 28 U.S.C.
§ 1254(1).

2
CONSTITUTIONAL AND
STATUTORY PROVISIONS
Text in italics are narratives by Warner Plain text
is from the actual law or provisions.
The Constitutional provisions involved are the
Fourteenth Amendment, Article TV, §1, Clause 1
Amendment XTV
NOTE: This is included as the current circuit confusion
as to promissory notes applies two different standards
on the citizenry:
1.

Some circuits require the lender to pro­
duce the Promissory Note in order to col­
lect on a loan.

2.

Other circuits have no requirement to pro­
duce the Promissory Note and allow lend­
ers to collect on loans by using only
documents they created without the bor­
rower’s knowledge or consent.

3.

The result is a lack of equal protection of
the law.

Section 1.
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are citi­
zens of the United States and of the state wherein they
reside. No state shall make or enforce any law which
shall abridge the privileges or immunities of citizens of
the United States; nor shall any state deprive any per­
son of life, liberty, or property, without due process of

3
law; nor deny to any person within its jurisdic­
tion the equal protection of the laws. (Emphasis
added)
Article IV, § 2, Clause 1:
NOTE: Included to show that circuit confusion as to
Promissory Notes denies some citizens the protection
and privileges of Promissory Notes pertaining to collec­
tion of loans while granting protection to the citizens in
other Districts or Circuits.
The Citizens of each State shall be entitled to all
Privileges and Immunities of Citizens in the several
States.
The Statutes involved are:
Arkansas Statute of Frauds;
This statute was barely mentioned by the subordi­
nate Courts or was not considered at all. The require­
ment that a contract or promises be in writing applies
to this case. Without the Promissory Note there does not
exist any other document containing any of the Terms,
Conditions, and Signature of Warner.
This alone was grounds for Summary Judgment in
favor of Warner. Instead, DOE produced documents all
of which were derived from the files of DOE. Warner
was never advised that the Treasury Offsets used by
DOE to extract payments from Warner’s federal benefits
were done absent the Promissory Note.
No other document produced had a single one of
the Terms and Conditions applicable to the loan let
alone his signature indicating acceptance. Absent the

4
legal authority granted by the contents of the Promis­
sory Note to confiscate funds due Warner, Warner sees
this as civil fraud.
Ark. Code § 4-59-101
2019 Arkansas Code
Title 4 - Business and Commercial Law
Subtitle 5 - Contracts, Notes, and Other Commercial
Instruments
Chapter 59 - Fraud
Subchapter 1 - Statute of Frauds
§ 4-59-101. Contracts, Agreements, or Promises
Required to Be in Writing - Definitions (Empha­
sis added)
The Judiciary Act of 1789 - An Act to establish
the Judicial Courts of the United States.
Defendant DOE received multiple requests over
several years to produce the only document relevant to
the case - the Promissory Note containing all terms,
conditions, and signature of petitioner accepting the
terms and conditions pertaining to the three consoli­
dated loans.
When the request for this document was presented
during Discovery, DOE admitted in their responses that
they could not produce that document.

5
Section 15. Requires all parties to produce all docu­
ments relevant to the issue.
“. . . . and if a defendant shall fail to comply
with such order, to produce books or writings,
it shall be lawful for the courts respectively on
motion as aforesaid, to give judgment against
him or her by default.”
Sec. 34. This section is relevant based upon the failure
of the District and Circuit Courts to apply Arkansas
law, specifically the Arkansas Statute of Frauds.
“And be it further enacted, That the laws of
the several states, except where the constitu­
tion, treaties or statutes of the United States
shall otherwise require or provide, shall be re­
garded as rules of decision in trials at common
law in the courts of the United States in cases
where they apply.”
The Erie Doctrine:
Both subordinate Courts ignored the stricture of
the Erie Doctrine by ignoring Arkansas law - specifi­
cally the Arkansas Statute of Frauds. Both subordinate
Courts allowed evidence to be introduced into the Record
none of which contained the Terms, Conditions, and Sig­
nature of Warner. The admission of Extra Record evi­
dence ignored the stricture against such an act and was
used by the District Court to help him make a decision.
Instead, these two courts accepted documents,
some of which had Warner’s signature such as several
Forbearance Requests, none of which contained the
relevant information. For example, copies of Excel

6
spreadsheets, the Administrative Record which did not
contain an Affidavit of Lost Note.
Not one of the documents produced by Defendant
and relied upon by the District and Appeals Courts con­
tained any of the Terms and Conditions ofWamer’s loan.
All of which clearly shows an intent to ignore the
Erie Doctrine; Arkansas Statute of Frauds, and the
14th Amendment.
Erie Railroad Co. v. Tompkins, 304 U.S. 64 (1938).
In Erie Railroad, the issue was whether a federal
court had to follow state tort law or could instead in­
vent its own tort law. The Supreme Court held it was
unconstitutional for federal courts to create federal gen­
eral common law in cases where state common law
would otherwise be used.
The Regulations are:
34 CFR § 674.31 - Promissory note.
NOTE: CFR § 674.31 is referenced and included to
show the information that Warner is unable to verify
that his Master Promissory Note contained the infor­
mation below.
For example, § (b)(l)(i) states the interest rate to be 5%
while the interest rate assessed against Warner was 9%.
34 CFR § 674.31 - Promissory Note.
§ 674.31 Promissory note.
(a)

Promissory note.
(1) An institution may use only the promis­
sory note that the Secretary provides. The

7

institution may make only non-substantive
changes, such as changes to the type style or
font, or the addition of items such as the bor­
rower’s driver’s license number, to this note.
(2)

(i) The institution shall print the note
on one page, front and back; or
(ii) The institution may print the note on
more than one page if (A) The note requires the signa­
ture of the borrower on each
page (Emphasis added); or
(B) Each page of the note contains
both the total number of pages in
the complete note as well as the
number of each page, e.g., page 1
of 4, page 2 of 4, etc.
(iii)The promissory note must state the
exact amount of the minimum monthly
repayment amount if the institution
chooses the option under § 674.33(b).
(b) Provisions of the promissory note (1) Interest. The promissory note must state
that (i) The rate of interest on the loan is
5 percent per annum on the un­
paid balance [as Warner was as­
sessed an interest rate of 9%. With
no Promissory Note there was
no way to prove Warner agreed

8
to the higher interest rate]; and
[Emphasis added]
(ii) No interest shall accrue before the
repayment period begins, during cer­
tain deferment periods as provided
by this subpart, or during the grace
period following those deferments.
7 CFR § 4279.226 - Replacement of document. (Par­
tial narrative)
NOTE: This is included as it essentially describes an
Affidavit of Lost Note. No Affidavit of Lost Note was in
DOE’s Administrative Record (AR) even though there
are several references in the AR to the promissory note
being unavailable or unreadable.
The Administrative Record shows that no Affidavit of
Lost Note was filed.
(a) The Agency may issue a replacement Loan Note
Guarantee or Assignment Guarantee Agreement
which was lost, stolen, destroyed, mutilated, or de­
faced to the Lender or Holder upon receipt of an
acceptable certificate of loss and an indemnity
bond.
(b) When a Loan Note Guarantee or Assignment
Guarantee Agreement is lost, stolen, destroyed,
mutilated, or defaced while in the custody of the
Lender or Holder, the Lender must coordinate the
activities of the party who seeks the replacement
documents and must submit the required docu­
ments to the Agency for processing. The require­
ments for replacement are as follows:

9
(1) A certificate of loss, notarized and con­
taining a jurat, which includes:
(i) Name and address of owner;
(ii) Name and address of the Lender of
record;
(iii) Capacity of Person certifying;
(iv) Full identification of the Loan Note
Guarantee or Assignment Guarantee
Agreement including the name of the
Borrower, the Agency’s case number,
date of the Loan Note Guarantee or
Assignment Guarantee Agreement,
face amount of the evidence of debt
purchased, date of evidence of debt,
present balance of the loan, percent­
age of guarantee, and, if an Assign­
ment Guarantee Agreement, the
original named Holder and the per­
centage of the guaranteed portion of
the loan assigned to that Holder. Any
existing parts of the document to be
replaced must be attached to the cer­
tificate;
(v) A full statement of circumstances of
the loss, theft, destruction, deface­
ment, or mutilation of the Loan Note
Guarantee or Assignment Guarantee
Agreement; and
(vi) For the Holder, evidence demonstrat­
ing current ownership of the Loan
Note Guarantee and Promissory
Note or the Assignment Guarantee
Agreement. If the present Holder is

10
not the same as the original Holder,
a copy of the endorsement of each
successive Holder in the chain of
transfer from the initial Holder to
present Holder must be included. If
copies of the endorsement cannot be
obtained, best available records of
transfer must be submitted to the
Agency (e.g., order confirmation, can­
celed checks, etc.).
In closing:
Courts have no power (just as the Commissioner has no
power in his capacity as an administrative official) “to
rewrite legislative enactments to give effect to” their
“ideas of policy and fitness or the desirability of sym­
metry in statutes.” 479 F.2d 1147 - Busse v. Commis­
sioner of Internal Revenue, § 26.

WHY A PROMISSORY NOTE IS
REQUIRED TO COLLECT
WARNER’S DEBT AND ALL DEBTS
Lending businesses in England around the year
1600 had become so chaotic that Parliament created a
Statute of Frauds. This document, requiring the terms,
conditions, and signatures of the parties be in writing.
This ended the feuding that occurred with every lend­
ing act.
The document that was created so as to impose
terms, conditions, and agreements of the parties by sig­
nature was known as The Statute of Frauds. While it

11
was created in England in 1667 the founders ofAmer­
ica immediately saw its value.
As the Constitution of the United States was in­
tended to curb the power of the federal government the
Founders did not insert a Statute of Frauds into the
Constitution of the entire nation. They left it to the sev­
eral states to include a Statute of Frauds should they
so desire.
This gave them freedom to word their Statute of
Frauds a bit differently than other states.
Erie Railroad Co. v. Tompkins, 304 U.S. 64 (1938)
Syllabus
1.

The liability of a railroad company for in­
jury caused by negligent operation of its
train to a pedestrian on a much-used,
beaten path on its right-of-way along and
near the rails depends, in the absence of
a federal or state statute, upon the un­
written law of the State where the acci­
dent occurred. Pp. 304 U. S. 71 et seq.

2.

A federal court exercising jurisdiction
over such a case on the ground of diver­
sity of citizenship, is not free to treat this
question as one of so-called “general law,”
but must apply the state law as declared
by the highest state court. Swift v. Tyson,
16 Pet. 1, overruled. Id.

3.

There is no federal general common law.
Congress has no power to declare sub­
stantive rules of common law applicable
in a State whether they be local in their

12
nature or “general,” whether they be com­
mercial law or a part of the law of torts.
And no clause in the Constitution pur­
ports to confer such a power upon the fed­
eral courts. Except in matters governed by
the Federal Constitution or by Acts of Con­
gress, the law to be applied in any case
is the law of the State. And whether the
law of the State shall be declared by its
legislature in a statute or by its high­
est court in a decision is not a matter
of federal concern [Emphasis added]. P.
304 U.S. 78. [Erie Railroad Co. v. Tomp­
kins, 304 U.S. 64 (1938)] [Emphasis added].
Arkansas has a Statute of Frauds wherein it states:
2010 Arkansas Code
Title 4 - Business and Commercial Law
Subtitle 5 - Contracts, Notes, And Other
Commercial Instruments
Chapter 59 - Fraud
Subchapter 1 - Statute of Frauds
§ 4-59-101 - Contracts, agreements, or
promises required to be in writing.
[Emphasis added]
The relevant section to this lawsuit is § 4-59-101.
This section is relevant as there is no Promissory Note
containing the Terms, Conditions, and signed by
Warner by which to refer when questioning the Terms,
Conditions, and Signature.
Warner’s position is that since the DOE did not
properly maintain these important records resulting in
an illegible document of what DOE purports to be the
Promissory Note, there is no loan.

13
Respondent, over many years, has taken the posi­
tion they do not need the Note to collect. The “evidence”
they gathered on their own is more than sufficient to
validate the loan. The result of this is not having a doc­
ument showing the Terms, Conditions, and acceptance
Signature. Lender made up the Terms and Conditions
from their internal records absent any agreement by the
borrower. This includes changing interest rate, penal­
ties, fees, and so forth. All of which is done without the
knowledge, concurrence, or acceptance by the borrower.
It’s back to the early 1600’s in England prior to the
Statute of Frauds that was written specifically to pre­
vent the very actions Respondent has used in the in­
stant case.
Warner pointed out in his earlier filings that not a
single document produced by Respondent contained
neither a Term, a Condition, nor Warner’s signature.
Respondent’s position as to having sufficient evidence
to validate the loan is fallacious absent the Promissory
Note.
As noted above, the only issue presented in this
Writ and to the lower courts was and still is:
“If the lender, upon request by the borrower,
cannot produce a completely legible as to
Terms, Condition, and Signature promissory
note, may legally collect on that loan?”

14
“Furthermore, the lender does not have a sin­
gle document with any of the terms, conditions,
and signature of the borrower, can the lender
legally collect1?
The written agreement between lender and bor­
rower must have certain wording in order for the con­
tract to be considered valid and binding upon the
parties. These are:
1.

“Even when an agreement is put in writ­
ing, there are certain elements that must
be contained in the writing in order for
the contract to be considered valid and
binding. Such agreements must:

2.

Be in written form, thought it does not
need to be written in any type of formal
language.

3.

Identify the subject of the contract in an
easily understood manner.

4.

Spell out the essential terms of the agree­
ment, including the exact nature of the
goods or services, and the price or other
consideration agreed upon.

5.

Include the signatures of both parties, or
at a minimum, the signature of the party
that is being charged for the goods or ser­
vices.”
Statute ofFrauds, February 20,2016, by:
Content Team, https://legaldictionary.net/
statute-of-frauds!

15
Not a single one of the requirements for a promis­
sory note were presented to Warner after multiple re­
quests both before and after discovery.
The actions of lenders collecting on loans absent
the promissory note also violates the Equal Protection
clause of the U.S. Constitution. 14th Amendment to the
U. S. Constitution, Section 1.
Having different collection standards among the
several states creates confusion as to what protection
should lenders take regarding promissory notes. Lend­
ers in one state do not have to worry about protecting
promissory notes while lenders in another state do have
to worry about protecting promissory notes. Confusion
can exist within a single state by requiring some loans
to have a promissory note while allowing other loans to
be collectable absent a promissory note.
The confusion created by multiple standards as to
collecting on loans denies every citizen the knowledge
that in some states debt collection standards are strict
while in other states debt collection standards are lax.
Standard procedures applying to all states and
their citizens equally removes all questions as to what
document(s) are critical and must be preserved. When
other states and circuits have differing standards as to
the value of promissory notes the result is there is no
equal protection across the states and some citizens are
punished when lenders collect on missing promissory
notes while others do not.

16
Those borrowers who face collection absent the
promissory note potentially face having to pay the loan
twice should the original promissory note appear at a
later time.
Certain rules and procedures have to be changed
so conformity and standardization is imposed.

INTRODUCTION AND
STATEMENT OF THE CASE
The only issue presented concerns contract law
both federal and state. Specifically, contracts dealing
with lending and collecting money. Contracts pertain­
ing only to the lending and borrowing of money are
called Promissory Notes.
This case began back in the early 1980’s when Pe­
titioner Warner, (Warner) returned to university study
to earn a Master ofArts Degree in Economics.
Warner’s attention was divided between attempt­
ing to make a computer training business survive and
being an active plaintiff in an anti-trust lawsuit. [Bal­
moral Cinema v. Allied Artists, etc., U.S. Court ofAppeals
for the Sixth Circuit - 885 F.2d 313 (6th Cir. 1989)]
During his period of study at the University of
Memphis (then Memphis State University) for the Mas­
ters in Economics his financial problems increased to
the point that it became necessary to take three student
loans so as to complete his studies and earn the Master
ofArts in Economics degree.

17
Warner’s VA Educational Benefits had been used to
earn his Master of Science in Management degree.
Warner’s anti-trust lawsuit required a disinter­
ested third-party who was an economist to testify as to
the economic damages suffered as a result of the illegal
activities that denied Warner’s theatre top-quality mo­
tion pictures.
The intricacies of licensing theatrical motion pic­
tures is a little known subject. Warner enrolled in the
Master ofArts in Economics so as to be able to explain
to the expert witness how the actions of the defendants
prevented him from licensing for exhibition high-gross­
ing theatrical motion pictures. That is, the economic
damage in lost revenue and the projection of damages
had the defendants allowed Warner a fair opportunity
to license top revenue motion pictures.
Warner subsequently took out three (3) student
loans which were consolidated in 1987 into one loan
under a Master Promissory Note.
Warner does not deny that three loans were ob­
tained and later consolidated into one loan under a
Master Promissory Note. It is the Master Promissory
Note that is the issue of this lawsuit, not the loan
itself. Absent the Master Promissory Note Warner has
no way of verifying the interest charged, as well as fees
and expenses all of which were applied to the princi­
pal.
The three promissory notes that were replaced by
the Master Promissory Note were never presented dur­
ing discovery. Even if they had been presented the

18
Consolidated Master Promissory Note rendered them
moot. It is the Consolidated Master Promissory Note
that was presented on one page that was barely legible
for the top 10% of the page. The balance of the page was
blacked out with no terms, conditions, or signature
identifiable. App 11, Plaintiff’s Collective Exhibit 4-D.
Please see back of this Exhibit where a Notary Public
attests that “ ... IS A TRUE AND CORRECT COPY
OF THE ORIGINAL PROMISSORY NOTE.”
Based upon this notarized statement and the con­
dition of the note, did the Notary, Christine Taylor com­
mit civil fraud?
Allowing creditors to collect on loans without the
constraints of the promissory note essentially removes
all constraints especially those in the Arkansas Statute
of Frauds. The result would be, in Warner’s professional
opinion, economic chaos similar in nature to that which
led to England creating the Statute of Frauds.
In the year 2003 Warner began collecting Social Se­
curity Benefits. Several months before these payments
began Warner was notified that 15% of his monthly so­
cial security payments as well as other federal funds
due him such as tax refunds would be withheld as pay­
ments on his consolidate student loan.
Warner was still having financial difficulties at
this time and was working full-time for a computer ser­
vicing company. In 2003 he was laid off due to a staff
reduction at the location where he was working. That
company is presently defunct.

19
Warner’s situation as to earnings continued where
he found he was unable to continue making meaningful
contributions to the house income. His family subsisted
on the earnings of his wife who was a public-school
teacher.
All this time Warner noted the fees and costs con­
tinued to accumulate while the garnishment (Treasury
Offsets) continued. Warner took several forbearances
during this period. Bankruptcy was not an option as
Congress had closed this option for student loans.
Warner remembered a lesson from his college clas­
ses - no promissory note, no loan.
Warner contacted several attorneys in Eastern Ar­
kansas he knew about taking this case. All responded
the same way - no one was interested.
Thus, Warner had no choice but to file this Writ of
Certiorari Pro Se and all preceding document as well.

REASONS FOR GRANTING THE PETITION
THIS CASE PRESENTS AN IMPORTANT
QUESTION OF FEDERAL LAW THAT HAS NOT
BEEN, BUT MUST BE SETTLED BY THIS COURT.
The issue presented in this case involves a genuine
continuing conflict between the Federal Courts of Ap­
peals and state courts that is significant and extremely
important because it will determine the standard of re­
view courts use when reviewing requirements necessary
to collect debts.

20
The Eighth Circuit's as well as the District Court’s
decision reflect that the U. S. Supreme Court’s decision
found in Erie Railroad Co. v. Tompkins, 304 U.S. 64 (1938)
was ignored by both the district and circuit courts.
Absent federal law to refer to, both courts ignored
the requirements of Erie, to apply existing state law
where federal law does not exist. Here, both the district
and the circuit court ignored applying the strictures of
Erie and applied their own thinking rather than the Ar­
kansas Statute of Frauds.
Is a Promissory Note that is legible as to all terms
and Conditions and the Signature of the borrower(s) of
a loan necessary in order to enforce collection of a
loan?
Or, as is present with the instant case, can lenders
substitute documents they created with no input or ap­
proval by the borrower to obviate the need for the prom­
issory note and collect the loan using data they
manufactured with no input from the borrower?
This case raises the importance and necessity of
lenders to keep and maintain accurate records that
must be presented upon demand. The purpose of which
is to prove that the Terms and Conditions of a loan
(Contract) are legitimate and enforceable by lenders as
verified by the signature of the borrower.
The lawsuit that brought about this Writ was filed
September 10, 2018 in the Federal Court for the East­
ern District of Arkansas. Docket Number: 3:18-cv00169, assigned to Judge D. P. Marshall. Parties are

21
Frank C. Warner (Warner), Pro Se, and the U.S. Depart­
ment of Education (DOE).
In their reply to the Complaint DOE admitted they
could not produce a legible, signed copy of the Promis­
sory Note with all the terms, conditions, and signature
of Warner [Docket #8, Section III, Paragraphs 3 & 4]
In spite of this admitted fact DOE continued col­
lection action on Warner by way of Treasury Offsets
that began around mid-2003. [Docket #8, Section III,
Paragraphs 3 & 4] These Treasury Offsets ceased when
this case was filed.
After filing this lawsuit DOE responded with their
answer to the Complaint. Warner then initiated Discov­
ery by submitting Requests for Documents; Requests for
Admissions; and Interrogatories.
In each response by DOE, they admitted that a leg­
ible copy of the Promissory Note was not available.
Based upon these admissions as to failure to pro­
duce the only document providing legal authority to
collect on Warner’s debt, Warner filed for Summary
Judgment. The Trial Judge denied Warner’s Motion for
Summary Judgment.
DOE’s response was to move Warner’s case to the
Administrative Procedures Act (APA).
Examining the Administrative Record (AR) Warner’s
account reveals that sometime in 1987 Warner consoli­
dated three (3) individual student loans into one loan
by way of a Master Promissory Note.

22
One document in the AR is the Promissory Note
that is in DOE’s Administrative records. Except for a
small amount at the top middle of the page the entire
document is illegible. No Terms, Conditions, and Signa­
ture are present. SeeApp. 11.
This is document is identical to previous requests
for the Note submitted to DOE’s collection agencies and
DOE itself.
A careful review oftheAR by Warner revealed sev­
eral notations as to the Note. Several entries noted the
absence of the promissory note.
Also absent from the AR is a reference to an Affida­
vit of Lost Note.
Beginning sometime in the year 2011 Warner
looked at the account statement pertaining to his Stu­
dent Loan. While reviewing relevant documents Warner
noted that while costs such as interest and fees were in­
creasing there was no reduction in the claimed princi­
ple of the loan. While the amount of the principal
remained the same the amount showing the accumula­
tion of fees, interest, etc. continued to grow.
Over the years Warner’s financial conditions pre­
vented repayment of this loan.
Not only did the District Court and the Circuit
Court ignore state law regarding lending contracts they
also ignored the following:
34 CFR § 674.31 - Promissory note
15 U.S. Code § 1692g. Validation of debts
Erie Railroad Co. v. Tompkins, 304 U.S. 64 (1938)

23
The decisions rendered by the District Court and
the Eighth Circuit Court are erroneous and indicative
of a lack research as to the procedure(s) to follow when
a promissory note is lost.
Trial Court used a sample promissory note that
“mirrors” Warner’s. [Docket #34, Page 31]. Warner ob­
jected to allowing this into evidence. This “sample”
promissory note consists of more than one page. The
“promissory note”produced numerous times to Warner
is only one page. [Docket #42. See Page 2 beginning at
line 1] More detail is provided in Plaintiff’s Memoran­
dum in Support of the Motion to Strike Defendant’s Ex­
hibits 1 & 2. [Docket #43] See [Docket #43, Page 7].
This Writ is filed for the purpose of respectfully ask­
ing this honorable court to end the confusion amount
the state courts, the federal district courts, and the fed­
eral circuit courts as to the necessity of producing the
original of the promissory note.
As stated elsewhere, unless the Court standardizes
for all courts that careful document protection is criti­
cal in attempting to collect on a loan eventually the dif­
fering courts, state and federal, will cause economic
chaos the same that led to the creation of the Statute of
Frauds.

RELIEF SOUGHT
Petitioner Warner requests this Court establish
that all contracts (promissory notes), be produced upon
request.

24
Failure to produce the Original Promissory Note
upon request shall render said loan dismissed with
prejudice and the loan declared null and void.
Upon failure to produce the original promissory
note upon request that all monies collected as payments
be returned to the borrower and that interest of 6% be
calculated as compound interest, not simple interest.
That all monies spent in prosecuting this case be
returned to Warner so as to make him whole as to ex­
penses.
That all monies paid as principle, interest, and fees
paid by Warner, be returned to him with an interest rate
of 9%, the same interest rate imposed upon Warner for
the entire duration of the loan beginning with the first
payment.
Warner has been notified by a contractor for the De­
partment of Education that in August his student loan
will be discharged in full.
This is the result of the Veterans Administration
classifying Warner as 100% service connected perma­
nently and totally disabled.
Petitioner Warner respectfully asks that the Court
grant Certiorari on the subject of the Promissory Note
and not the loan.
Both the District and Circuit Courts ignored the
laws that required them to apply state law when federal
law did not exist.

25
As Warner’s loan will be discharged in August,
should monetary compensation be awarded Warner re­
quests that all payments made from Treasury Offset up
to November 16, 2016 be returned as the Court may de­
cide.
The VA has established my 100% disability began
on the November date above.
Therefore Certiorari should be granted and this
Honorable Court set a nationwide standard regarding
debt collection and promissory notes.
Any additional relief awarded by the Court would
be appreciated.
Respectfully submitted,
Frank C. Warner, Pro Se
1039 Lake Rest Rd.
Proctor, AR 72376
901-490-6773
fcwmjw@msn.com

